LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

September 2, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

CHARLES MEYERS, ET AL. V. CITY OF NEW YORK, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioners, on September
2, 2020, I caused service to be made pursuant to Rule 29 and the Temporary Order of
April 15, 2020, on the following counsel for the Respondents:
RESPONDENTS:
Zachary S. Shapiro, Esq.
New York City Law Department
Appeals Division
100 Church Street
New York, NY 10007
212-356-1645
ServiceECF@law.nyc.gov

Richard Paul Dearing, Esq.
Assistant Corporation Counsel
New York City Law Department
100 Church Street
New York, NY 10007
212-356-2500

Devin Slack
New York City Law Department
Room 6-192
100 Church Street
New York, NY 10007
212-356-0817
This service was effected by depositing one copy of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 2nd day of September 2020.

